<html>
<title> - A NATIONAL PRIORITY: THE IMPORTANCE OF CHILD NUTRITION PROGRAMS TO OUR NATION’S HEALTH, ECONOMY AND NATIONAL SECURITY</title>
<body><pre>[Senate Hearing 113-560]
[From the U.S. Government Publishing Office]





 
                                                        S. Hrg. 113-560

                          A NATIONAL PRIORITY:
                   THE IMPORTANCE OF CHILD NUTRITION
                        PROGRAMS TO OUR NATION'S
                 HEALTH, ECONOMY AND NATIONAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION


                               __________

                             JUNE 12, 2014

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry
            
            
            
            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 






        Available via the World Wide Web: http://www.fdsys.gov/
        
                                ____________
                                
                                
                                
                            U.S. GOVERNMENT PUBLISHING OFFICE
93-031 PDF                       WASHINGTON : 2015                            

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  






            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
SHERROD BROWN, OHIO                  PAT ROBERTS, Kansas
AMY KLOBUCHAR, MINNESOTA             SAXBY CHAMBLISS, Georgia
MICHAEL BENNET, COLORADO             JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, NEW YORK         JOHN HOEVEN, North Dakota
JOE DONNELLY, INDIANA                MIKE JOHANNS, Nebraska
HEIDI HEITKAMP, NORTH DAKOTA         CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., PENNSYLVANIA   JOHN THUNE, South Dakota
JOHN WALSH, MONTANA

             Christopher J. Adamo, Majority Staff Director

              Jonathan J. Cordone, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Thomas Allen Hawks, Minority Staff Director

       Anne C. Hazlett, Minority Chief Counsel and Senior Advisor

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

A National Priority: The Importance of Child Nutrition Programs 
  to Our Nation's Health, Economy, and National Security.........     1

                              ----------                              

                        Thursday, June 12, 2014
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Gillibrand, Hon. Kirsten E., U.S. Senator from the State of New 
  York...........................................................     2

                               Witnesses

Hawley, General Richard E., United States Air Force (Ret.), 
  Mission: Readiness, Newport News, Virginia.....................     4
Thornton, Otha, President, National Parent Teacher Association, 
  Fort Stewart, Georgia..........................................     6
Cook, Stephen R., M.D., Physician, Associate Professor, School of 
  Medicine and Dentistry, University of Rochester Medical School, 
  Rochester, New York............................................     7
Stanislaus, Yolanda, Principal, Francis Scott Key Middle School, 
  Silver Spring, Maryland........................................     9
                              ----------                              

                                APPENDIX

Prepared Statements:
    Casey, Hon. Robert, Jr.......................................    30
    Cochran, Hon. Thad...........................................    31
    Leahy, Hon. Patrick J........................................    33
    Cook, Stephen R..............................................    35
    Hawley, Richard..............................................    40
    Stanislaus, Yolanda..........................................    44
    Thornton, Otha, Jr...........................................    46
Document(s) Submitted for the Record:
Stabenow, Hon. Debbie:
    ``A National Priority: The Importance of Child Nutrition 
      Programs to our Nation's Health, Economy and National 
      Security", Hon. Martin O'Malley, State of Maryland, Office 
      of the Governor............................................    50
    National Education Association, prepared statement...........    52
Question and Answer:
Stephen Cook:
    Written response to questions from Hon. Debbie Stabenow......    56
    Written response to questions from Hon. Patrick J. Leahy.....    59
    Written response to questions from Hon. Amy Klobuchar........    59
    Written response to questions from Hon. Michael Bennet.......    60
    Written response to questions from Hon. Robert Casey, Jr.....    63
Hawley, Richard:
    Written response to questions from Hon. Debbie Stabenow......    66
    Written response to questions from Hon. Michael Bennet.......    66
    Written response to questions from Hon. Robert Casey, Jr.....    68
    Written response to questions from Hon. John Boozman.........    70
Stanislaus, Yolanda:
    Written response to questions from Hon. Debbie Stabenow......    71
    Written response to questions from Hon. Amy Klobuchar........    71
    Written response to questions from Hon. Michael Bennet.......    72
    Written response to questions from Hon. Robert Casey, Jr.....    73
Thornton, Otha, Jr.:
    Written response to questions from Hon. Debbie Stabenow......    75
    Written response to questions from Hon. Patrick J. Leahy.....    75
    Written response to questions from Hon. Amy Klobuchar........    76
    Written response to questions from Hon. Michael Bennet.......    77
    Written response to questions from Hon. Robert Casey, Jr.....    79



                          A NATIONAL PRIORITY:



                   THE IMPORTANCE OF CHILD NUTRITION



                        PROGRAMS TO OUR NATION'S



                 HEALTH, ECONOMY, AND NATIONAL SECURITY

                              ----------                              


                        Thursday, June 12, 2014

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10:07 a.m., in 
room 328A, Russell Senate Office Building, Hon. Debbie 
Stabenow, Chairwoman of the committee, presiding.
    Present or submitting a statement: Senators Stabenow, 
Brown, Klobuchar, Gillibrand, Donnelly, Casey, Boozman, and 
Thune.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. Well, good morning. The committee 
meeting will come to order. We are so pleased that all of you 
are here today.
    I want to welcome everyone to the committee's first hearing 
as we begin the process of reauthorizing Child Nutrition 
Programs. These conversations could not come at a more critical 
time. Today, more than 16 million children in this country do 
not have enough to eat. At the same time, childhood obesity 
rates have tripled over the past 30 years. Something is wrong 
with this picture.
    These trends are not just a threat to the health of 
America's young people, they are a threat to the future of our 
national security, and we want to talk about that today. For 
generations, the U.S. military has depended on the strength and 
courage of young Americans to form the world's most elite 
fighting force. Our military leaders recognize this, and 
historically, when they have asked Congress for help, we have 
responded.
    Near the end of World War II, General Lewis Hershey came 
before the Congress to explain that malnutrition and 
underfeeding were to blame for recruits being rejected for 
service in the Armed Forces. In response to the General's 
concerns, Congress launched the National School Lunch Program, 
calling it a measure of national security.
    Today, as we will hear, our military leaders have a similar 
request for Congress, and it is the same request we will hear 
from pediatricians and school leaders and parents. They ask 
that we protect and strengthen school nutrition programs so 
that we can strengthen our nation's military preparedness and 
improve the long-term health of the next generation of 
Americans.
    This request has even more urgency today than it had 70 
years ago. That is because roughly 27 percent of Americans 
between the ages of 17 and 24 are too overweight to serve in 
the military. The proportion of new recruits who failed 
physical exams during the past 13 years rose by nearly 70 
percent.
    Childhood obesity and weight-related diseases weaken our 
nation's financial security, as well. It is estimated that the 
nation spends about $14 billion a year to treat obesity and 
preventable weight-related diseases in children alone, not 
counting adults. Yet, for 14 cents, we can give a child an 
apple in school. Fourteen billion a year or 14 cents. That 
reminds me of what Benjamin Franklin once said. An ounce of 
prevention is worth a pound of cure.
    These are the critical types of investments that we can 
make now to save billions down the road, reducing many of the 
high costs associated with treating preventable diseases, like 
Type 2 diabetes, hypertension, and liver disease.
    In the classroom, a school breakfast can spur a lifetime of 
learning and achievement. We know that children who receive a 
healthy breakfast are likely to have better math scores and are 
less likely to be absent from class. For many children, a 
healthy lunch can form the foundation for a lifetime of good 
health. Making sure children have healthy, nutritious food will 
mean they can focus on what is important--learning, growing, 
and ultimately becoming productive and successful in future 
years.
    While it is often easy to think of programs in terms of a 
six-month budget or the annual appropriations, this hearing is 
really about the big picture. School breakfasts and school 
lunch are key components of child nutrition, but it is also 
important to remember that child nutrition is also about 
wellness policies, it is about WIC--Women, Infants, and 
Children's Programs, it is about Farm to School efforts, and 
day care. It is about reducing hunger for children after school 
and during the summer months.
    The authorization of Child Nutrition Programs is important. 
Investing in our children's nutritional health is not only 
about the cost of a meal, it is about investing in our nation's 
future and our most critical priorities: Stronger national 
security, long-term economic strength, educational success, and 
the health and happy lives of our families.
    I am pleased we have a great panel of witnesses today with 
us who can discuss the big picture impact of investing in the 
health of our children. We welcome everyone today.
    Our Ranking Member is not able to be with us. I know we 
will be joined by others as we proceed. If either of my 
colleagues want to make a brief comment, we would be happy to 
have it. Otherwise, we will go to our witnesses.
    Senator Gillibrand.

  STATEMENT OF HON. KIRSTEN GILLIBRAND, U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Gillibrand. I have a statement to introduce one of 
our witnesses. Is that all right?
    Chairwoman Stabenow. Absolutely. I will let you proceed.
    Senator Gillibrand. Okay. Well, I would like to introduce 
Dr. Stephen Cook. He is trained in pediatrics and adult 
internal medicine. He currently serves as an attending 
physician at the Golisano Children's Hospital at the University 
of Rochester Medical Center.
    Dr. Cook has served as a member of my Healthy Children's 
Working Group and he has shared his research with us on child 
and adolescent obesity and his work has been a resource to me 
as I have developed my legislative agenda with respect to 
children's health.
    Dr. Cook's research focuses on children and childhood and 
adolescent obesity by examining cardiovascular risk factors in 
clinical studies on prevention intervention. Dr. Cook has been 
an integral part of the Greater Rochester Obesity 
Collaborative, which serves as a national model for obesity 
prevention and treatment. The Rochester team was among ten 
teams chosen to participate in the Healthy Weight 
Collaborative, which is aimed at curbing the obesity rate in 
the U.S.
    Dr. Cook received his M.D. from SUNY at Buffalo School of 
Medicine and completed his residency and a chief resident year 
in Buffalo, New York. He has completed an academic pediatric 
fellowship, during which he focused on research in clinical 
aspects on nutrition, physical activity, obesity, and metabolic 
complications that arise.
    Dr. Cook has received a number of medical and research 
awards and honors and has been recognized by the American Heart 
Association for being the National Science Advocate of the Year 
in 2011. He currently serves on the Governor's Anti-Hunger Task 
Force in New York State as well as the Chairman and Membership 
Committee for the Obesity Society.
    We welcome him to the Senate Agriculture Committee today 
and we look forward to his testimony.
    Chairwoman Stabenow. Thank you very much, Senator 
Gillibrand----
    Senator Gillibrand. Thank you, Madam Chairwoman.
    Chairwoman Stabenow. --and thank you for your advocacy and 
leadership. We are very fortunate to have both Senator Brown 
and Senator Gillibrand, who are strong advocates for the Child 
Nutrition Programs, and I look forward to working with you in 
partnership as we proceed to reauthorize in the coming year.
    Let me proceed with our other witnesses. I am so pleased to 
introduce our first witness on the panel, General Richard 
Hawley, a retired four-star general in the Air Force who serves 
on the Executive Advisory Council on Mission: Readiness, 
Military Leaders for Kids, which is a nonprofit, nonpartisan 
national security organization of hundreds of retired military 
officers committed to strengthening future generations through 
smart policy.
    During General Hawley's military career, he served in a 
variety of command and staff positions in the United States and 
overseas. He commanded a group, wing, Numbered Air Force, and 
two major commands. His assignments as a flag staff officer 
included duty as the Air Force Director of Operations during 
the First Gulf War, Commander of U.S. Forces Japan, and Fifth 
Air Force, Principal Deputy Assistant Secretary of the Air 
Force for Acquisition, and Commander United States Air Force in 
Europe and Allied Air Forces Central. We welcome you.
    Our second witness is Mr. Otha Thornton, President of the 
National Parent Teacher Association, who is also a Senior 
Operations Analyst with General Dynamics in Fort Stewart, 
Georgia. Mr. Thornton is a retired United States Army 
Lieutenant Colonel, and his last two assignments were with the 
White House Communications Agency and United States Forces Iraq 
and Baghdad. Mr. Thornton earned the Bronze Star Medal for 
exceptional performance in combat operations during Operation 
Iraqi Freedom in 2009-2010. As a PTA leader, Mr. Thornton's 
military background has allowed him to volunteer throughout the 
country and the world at various State, local, and council 
levels, and we are so pleased to have you with us.
    Let me now turn to Ms. Yolanda Stanislaus--we are so 
pleased to have you--who is the Principal of Francis Scott Key 
Middle School in Silver Spring, Maryland. She is an educator 
for 21 years, starting her career as a high school earth 
science and chemistry teacher in New York City Public Schools. 
She also taught at Bethesda-Chevy Chase High School and served 
as teacher and assistant principal at Silver Spring 
International Middle School. Prior to becoming Principal at 
Francis Scott Key, she was Principal of Galway Elementary 
School.
    Ms. Stanislaus has spent several years in the Montgomery 
County Public School System, and the Montgomery County Schools 
participate in the National School Lunch and Breakfast 
Programs. In addition to providing meals, the schools 
participate in other healthy food and hunger mitigation 
programs, including After School Snack, Summer Meals, and Farm 
to School activities.
    We are so pleased to have all of you here with your 
experiences and expertise to share with us. I would remind you, 
we are asking for five minutes' worth of testimony. We are very 
happy to accept whatever you would like to give us in writing, 
as well.
    We will start with General Hawley. Welcome.

STATEMENT OF GENERAL RICHARD E. HAWLEY, UNITED STATES AIR FORCE 
       (RET.), MISSION: READINESS, NEWPORT NEWS, VIRGINIA

    General Hawley. Well, thank you, Chairwoman Stabenow and 
members of the committee. First of all, thanks for holding this 
hearing and for including me. I appreciate the opportunity to 
join and give our perspective as a retired military flag.
    It may seem odd to some here that a retired general officer 
would be here talking about childhood nutrition, not exactly 
our line of expertise. But, as the Chairwoman pointed out, the 
National School Lunch Program was established in 1946, in large 
measure in response to our experiences during World War II, 
when we discovered that of those who were not qualified for 
military service, about 40 percent of those were malnourished. 
The Congress took action, established the School Lunch Program, 
and it has had a great effect on the health of our potential 
recruits upon who we depend to defend the nation.
    Unfortunately, 70 years later, nutrition remains a national 
problem and a problem for our military, but the pendulum has 
swung a little and the issue is now we have too many children 
and candidate recruits who are obese or overweight and, hence, 
unfit to perform the service that we require for our nation in 
the military.
    About 75 percent of young Americans today are unfit for 
military service, and that is a tragic figure. As the 
Chairwoman pointed out, more than one in five of our youth are 
too fat, overweight, obese, to meet the demands of military 
service. Others cannot meet the educational requirements or 
have a criminal background which disqualifies them.
    Just to put a number on this, for the six years from 2006 
to 2011, young men and women were denied enlistment at the rate 
of 62,000. Sixty-two-thousand young Americans during that 
period who could not qualify for military service because of 
their weight. Just to put a little easier number on it, that 
would man about 30 Air Force combat wings. It is an astounding 
figure and one that demands action.
    Twelve-hundred first-term enlistees are discharged every 
year because of weight problems, 1,200. The military has to 
then go out and recruit and train replacements. I do not know 
how this adds up to the 14-cent apple, Chairwoman, but it is 
$90 million a year that we spend to recruit and train those 
replacements. That would buy a lot of apples.
    DOD spends another $1.1 billion each year to treat obesity-
related illnesses through our military medicine and TRICARE 
programs.
    The military is responding to these problems. They have 
launched a number of initiatives to deal with the issues, but 
they need help, and that is why the school nutrition 
environment is so important. A child who is overweight in his 
preteen years has an 80 percent chance of being obese by age 
25, and those are the ones who cannot meet the requirements for 
military service.
    In 2010, our group released a report, ``Too Fat to Fight,'' 
and another in 2012, ``Still Too Fat to Fight,'' and they 
examine how obesity affects our military and highlight the need 
for standards in our School Lunch Program. When ``Too Fat to 
Fight'' was released in 2010, our children were consuming way 
too many junk food calories, the equivalent of two billion 
candy bars a year. By the way, two billion candy bars weighs 
more than the Aircraft Carrier Midway.
    But, the revised standards that this committee endorsed in 
2010 are beginning to show results. The steady upward march in 
rates of obesity is slowing, and in some age groups has been 
reversed. Cultural change does not happen quickly, but if given 
time to work their magic, the changes set forth in 2010 will 
give us a stronger military in 2030 and a healthier nation, as 
well.
    On behalf of the 450 generals and admirals of Mission: 
Readiness, I thank you for this opportunity to highlight the 
link between childhood nutrition and national security. We look 
forward to working with the committee as you continue this 
important work. Thank you.
    [The prepared statement of General Hawley can be found on 
page XX in the appendix.]
    Chairwoman Stabenow. Thank you very much for that 
testimony.
    Mr. Thornton, welcome again.

  STATEMENT OF OTHA THORNTON, JR., PRESIDENT, NATIONAL PARENT 
           TEACHER ASSOCIATION, FORT STEWART, GEORGIA

    Mr. Thornton. Chairman Stabenow, committee members, and my 
fellow distinguished panelists, I am honored to have the 
opportunity to speak before you on behalf of over four million 
members of the National Parent Teacher Association. With more 
than 24,000 local units, PTA exists in all 50 States, the 
District of Columbia, Puerto Rico, the U.S. Virgin Islands, and 
the Department of Defense Schools in Europe.
    I currently serve as President of the National PTA, an 
elected volunteer position that I assumed in June of last year. 
In addition to my involvement with National PTA, I have been 
active in State and local PTAs in Georgia, Maryland, Texas, 
Michigan, and Kaiserslautern, Germany. I am currently employed 
as a Senior Operations Analyst with General Dynamics at Fort 
Stewart, Georgia, and I am a retired Lieutenant Colonel. Most 
importantly, I have over two decades of experience as a father 
of my two wonderful children with my wife, Caryn, Candice and 
Tre.
    PTA was founded in 1897 and is the oldest and largest 
volunteer child advocacy organization in the United States. 
PTA's legacy of influencing policy to protect the education, 
health, and overall well-being of children has made an 
indelible impact in the lives of millions of children and their 
families. This legacy includes the creation of kindergarten 
classes, a juvenile justice system, child labor laws, and 
mandatory immunizations for school children. Our mission is to 
be a powerful voice for every child.
    With regards to today's hearing, one of the fundamental 
purposes of PTA is to preserve children's health and protect 
them from harm. PTA has been at the table from the beginning, 
piloting a hot lunch program in schools in the 1920s that led 
to PTA's advocacy for a National School Lunch Program, and each 
subsequent reauthorization of the Richard B. Russell National 
School Lunch Act.
    Most recently, the PTA and our coalition partners fought 
for the passage of the Healthy, Hunger-Free Kids Act, which has 
made significant updates to our nation's Child Nutrition 
Programs. PTA viewed this as both a win for the kids and also 
the parents, because parents knew that, for the first time, no 
matter what our kids purchased in the cafeteria, it was going 
to be good for them. As for the primary decision makers in our 
kids' lives, it also provided us as parents a stronger role 
through local wellness policy development, implementation, and 
evaluation. As I always say, if you are not at the table, you 
are on the menu.
    I mention these accomplishments not only to underscore 
PTA's commitment to the well-being of our nation's children, 
but also to provide a historical context for where we are 
today. We have made a commitment to our children for over 70 
years to do the right thing in the cafeteria and we cannot turn 
our backs now.
    I know some of my fellow panelists will address the reality 
of our nation's obesity crisis as it relates to our overall 
health and national security, so as a PTA leader and father, I 
am here today to tell you that our parents and families are 
committed to working together to ensure the continued success 
of our nation's Child Nutrition Programs.
    Where are we today? Schools are making exceptional progress 
in the nutritional quality of the meals that they are serving 
to our kids. There have been challenges along the way, but that 
is to be expected. We are parents, after all. When was the last 
time you changed rules for your kids in the interest of their 
well-being and your kids were happy about it? Do we have anyone 
here?
    As a partner in the school building, PTA and parents 
understand there are certain challenging realities. There is 
never enough time, seldom enough money, and oftentimes minimum 
resources, but that has never and can never be a free pass not 
to do the right thing for our kids. For parents, it means that 
we need to step up to the plate and support our schools, the 
board, the administration, the school food service, the 
teachers, the students to make sure that the school meals are 
successful. That means having a seat at the table and finding 
solutions to the challenges.
    Do we need updated kitchen equipment to serve fresh food? 
Well, how are we going to secure funding? Do we need volunteers 
so breakfast can be served in the classroom? Well, let us get 
some parents and grandparents together. Do we need to taste 
test some of the new items? How can we help? Do we need to 
adjust our fundraising practices? Let's do this.
    One of the most common questions that we hear as we travel 
around the country is, will our kids have enough time to eat 
lunch? How can we solve this problem? We can do this together. 
It may take a little bit of time and a lot of effort, but we 
can do it.
    In closing, thank you for having me here for this 
testimony.
    [The prepared statement of Mr. Thornton can be found on 
page XX in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Dr. Cook, welcome.

STEPHEN R. COOK, M.D., ASSOCIATE PROFESSOR, SCHOOL OF MEDICINE 
    AND DENTISTRY, UNIVERSITY OF ROCHESTER MEDICAL SCHOOL, 
                      ROCHESTER, NEW YORK

    Dr. Cook. Thank you very much, Chairwoman Stabenow and 
distinguished members of the committee. I am both a 
pediatrician and adult internist from Upstate New York and an 
American Heart Association volunteer.
    The unintended benefit of my dual training is now being 
realized in the current childhood obesity epidemic. Today, I 
see young patients with Type 2 diabetes, high cholesterol and 
fatty liver disease. These are conditions which I am familiar 
with as an internist treating adult patients, but my pediatric 
colleagues never saw before. In other words, our children are 
developing adult diseases accelerated by their poor diets and 
developing obesity.
    The statistics are grim. Today, one in three kids or teens 
are overweight or obese, nearly tripled from the 1960s. 
Hypertension, high cholesterol, Type 2 diabetes are affecting 
children and adolescents at unprecedented levels. Not 
surprisingly, more than 90 percent of children meet none or 
only one of the five components the American Heart Association 
uses to define a healthy diet, such as eating more fruits and 
vegetables or more whole grains.
    Beyond the toll and human suffering, obesity is associated 
with diseases with a steep price tag. The cost of treating 
obesity-related illnesses in the U.S. tripled just over a 
decade, from $78 billion in 1998 to $270 billion in 2009. Let 
me tell you a story behind some of these statistics.
    I currently work in a pediatric practice at the Children's 
Hospital at the University of Rochester and I am on the front 
line of the war against childhood obesity. Almost half the 
students in the Rochester City School District are considered 
overweight or obese, and nearly 80 percent of these students 
qualify for Free and Reduced Lunch, in many instances, that 
being the only healthy meal they receive all day.
    It was during my fellowship training in Rochester that I 
learned a very important lesson I would like to share with you. 
I learned that I, as a pediatrician, must care for children and 
families beyond the four walls of my office. I could provide 
life-saving vaccines or medications, but what good would it do 
if these very same children were doomed to a life of chronic 
disease and early death brought upon in part by unhealthy 
diets?
    On a positive note, I have seen firsthand how children's 
eating and activity habits are established very early in life. 
It is a critical window when eating habits and healthy 
lifestyles are imprinted behaviorally and biologically. It 
provides a great, and, I would argue, unique opportunity for 
improving the health of our nation's children, lowering medical 
costs, and improving productivity.
    I would like to illustrate the delicate balance of a small 
change and consistent change in the life of a child and how, if 
made correctly at the right times, allow for prevention and 
treatment really to overlap. A colleague of mine and I had a 
three-year-old patient who, during his annual check-up, was 
found to have a BMI in the obese range, actually, 97th 
percentile. She discussed with the child's mother the boy's 
beverage habits and drinking, and which the mom did not think 
was a problem until he returned for his four-year check-up in 
which he was still obese, now at the 98th percentile for age. 
They discussed cutting back on the sugary beverages along with 
instituting some behavior changes related to nutrition and his 
inactivity level.
    He came in for regular visits over the next two-and-a-half 
years and his weight continued to increase, but more slowly. 
Over his last two visits, his weight actually decreased by just 
over a pound. This was over seven months. But, by now, his BMI 
percentile was 69th percentile for age, right where it should 
be, right in the normal change.
    These changes in behavior we discussed were not of a high 
intensity level, like a treatment level needed for older 
children or those more severely affected by obesity, but the 
consistent message as part of well child visits, with age-
appropriate recommendations for nutrition, physical activity, 
screen time, and sleep. This is also a motivated parent who 
sought out resources, including ensuring her son attended a 
high-quality child care center that was moving to improve 
policies around meals and snacks. The patient is now on the 
right path for a healthy life.
    Programs authorized by the Healthy, Hunger-Free Kids Act 
set the stage for millions of children to also get a head start 
for a lifetime of healthy habits. Based on solid clinical 
research, I urge the committee and Congress to continue the 
good work with school districts to prioritize Child Nutrition 
Programs. It is great up-front investment in our children and 
our nation's future. To do less is unacceptable.
    I also believe that we cannot let perfect be the enemy of 
good. The USDA and schools can work through challenges while at 
the same time applying evidence-based strategies for altering 
the food environment and the presentation with minimal cost.
    Let me conclude by noting that the programs in child 
nutrition reauthorization play a critical role in improving the 
health of our nation's children, their future, and our nation's 
future. It is one of the many strategies that, while alone will 
not be enough, must be implemented to turn the tide on obesity 
and the many other chronic obesity-related conditions among 
America's youth. The very lives of our children are at stake. 
Thank you.
    [The prepared statement of Dr. Cook can be found on page XX 
in the appendix.]
    Chairwoman Stabenow. Well, thank you very much, Doctor, for 
that testimony.
    Principal Stanislaus, welcome.

 STATEMENT OF YOLANDA STANISLAUS, PRINCIPAL, FRANCIS SCOTT KEY 
             MIDDLE SCHOOL, SILVER SPRING, MARYLAND

    Ms. Stanislaus. Welcome, and thank you for having me. Good 
morning, Chairwoman Stabenow and members of the committee, and 
thank you for this opportunity to share my experience and views 
on the importance of Child Nutrition Programs like School 
Breakfast and School Lunch.
    When I think about this issue of school nutrition from the 
perspective of a principal and parent of both a middle school 
and elementary-age child, the benefits of universal or Free and 
Reduced Meals Programs is obvious. In addition, I was a child 
of two working-class parents who worked tirelessly to clothe, 
feed, and nurture five children. As a child, I participated in 
the meal program at my school. I recall looking forward to 
going to school every day and wondering what was going to be 
served for breakfast and lunch. I can testify firsthand that 
the School Meal Program had a positive impact on my life and my 
learning.
    There are children in classrooms all over this nation, in 
cities, in suburbs, and in communities, who are coming to 
school extremely eager to learn. In order for students to learn 
at high levels, they must be prepared and ready to concentrate 
by starting their day off with a nutritious breakfast.
    The numbers show that one out of five school-age children 
struggle with hunger in this country. I can tell you that on a 
more personal note, I have 65 percent of my students who 
receive Free and Reduced Breakfast and Lunch daily, and they 
are still struggling with having enough to eat at home. I can 
also tell you that this makes it harder for them to learn.
    I am not alone. There are teachers and principals all over 
this country who will tell you the same thing. There are 
children in classrooms all over the nation, cities and suburbs, 
who are coming to school too hungry to learn. In some cases, 
the nutritious school breakfast and lunch are the only meals 
the students have on a daily basis.
    Children who consistently do not get enough to eat tend to 
go to the nurse more often, have trouble focusing on lessons, 
which often result in off-task behavior and difficulties with 
sharing their best thinking on their tests. Research shows that 
students who do get enough nutrition on a daily basis feel 
better, learn more, develop good eating habits, and grow up 
stronger.
    We spend so much time and thought and money in this nation 
around educating our children. We ask questions like, how do we 
improve our test scores? How do we ensure that students 
graduate? There are some wonderful programs and innovations to 
educate our kids, but if they are too hungry to learn, we have 
lost them before we have begun.
    There are two really key times I see hunger as a widespread 
problem, in the mornings and after the summer and the start of 
the school year. For students of low-income families, their 
nutrition comes from school meals. Without school breakfast and 
lunch, these students would not get the nutrition they need.
    You can really see it in the morning. I have seen students 
come to school and they have not eaten since lunch the day 
before. They are irritable. They cannot focus. They are only 
able to think about where their next meal is coming from. I am 
grateful that my school has a universal Free Breakfast Program. 
This program enables all of my students to receive nutritious 
breakfast and start their day off right.
    Another danger time is over the summer vacation. Students 
do not get school meals when school is out of session. You can 
see a real difference at the start of the school year between 
students who had enough to eat over the breaks and those who 
struggled. The ones who may not have been getting consistent 
meals are more stressed out. They take longer to get into the 
swing of the school year. They have forgotten a lot of what 
they have learned the year before, and it makes a real 
difference with their progress.
    As a principal, I make it my duty to greet my students 
every morning. This is an opportunity for me to quickly gauge 
my students' current social-emotional state. This particular 
morning, I noticed a student who appeared tired and unhappy. 
Before I could ask him what was wrong, he asked me, ``Ms. 
Stanislaus, are we going to be getting breakfast this morning? 
I do not have any money.'' I quickly reassured him that 
breakfast was waiting for him in his first period classroom. A 
sense of relief came over his face and he quickly proceeded 
into the building. This and many other stories similar to this 
one confirms for me how important it is that schools have a 
nutritious Breakfast and Lunch Program for students and how 
much they rely on them on a daily basis.
    I would like to share with you some current research 
conducted by the nonprofit organization, No Kid Hungry, and the 
consulting firm Deloitte. They analyzed the ways hunger affects 
a child's ability to learn. Their research focused primarily on 
what happens when students from low-income families get the 
breakfast every day. Here are some of their findings. Their 
attendance rate went up. Tardiness and absences went down. On 
average, students scored 17.5 percent higher on math 
assessments.
    Higher attendance and higher test scores are closely tied 
to graduation rates. Students who attend school regularly and 
receive better grades are 20 percent more likely to graduate 
from high school. This has a huge potential impact on their 
futures and ours. High school graduates are more likely to find 
better employment, make higher salaries, and become self-
sufficient.
    I thank you for this time. Once again, I am the proud 
Principal of Francis Scott Key Middle School.
    [The prepared statement of Ms. Stanislaus can be found on 
page XX in the appendix.]
    Chairwoman Stabenow. Well, thank you so much. Thank you to 
each of you for your important testimony.
    First, let me start, General Hawley, with you. I know that, 
as you have said, since 2012, the Department of Defense has 
really expanded its efforts to combat obesity, and I think, as 
you indicated, as well, people would be surprised that we start 
this whole process of reauthorization talking about what is 
happening in our military and Department of Defense, but it is 
a very real, concrete example of what is happening in terms of 
obesity in our country.
    I know you are investing--the DOD is investing a lot of 
time and funding to prevent obesity. Could you talk a little 
bit more about those investments versus the amount of money 
being spent to treat obesity?
    General Hawley. I retired some years ago, so I cannot claim 
to be an expert on everything going on in DOD today, but I do 
know that they have instituted a number of trial programs--the 
Healthy Base Initiative, which includes all of the services--to 
institute programs to increase awareness of the problem among 
our soldiers, sailors, airmen, Marine, and Coast Guardsmen, 
because, as some of the testimony pointed out, sometimes people 
do not even understand what their diet is doing to them.
    They are doing things like color-coding items in the 
commissary and in the dining hall, dining facilities, red, 
green, yellow. The green says, hey, you can eat all that you 
want. It is good for you. It will help you be a better person 
in the military, a better soldier, sailor, airman. If it is 
yellow, well, maybe not so much. If it is red, hey, why do you 
not avoid that? That is full of sugar and that is not good for 
you.
    The Air Force, I know, has instituted a program recently on 
a trial basis that they hope to expand, Better Food, Better 
Body, again, trying to increase awareness among our airmen to 
let them know that, hey, your nutrition is important. It is 
going to affect how you perform. Of course, your performance is 
going to affect how well you do in your career in our service.
    There is a lot going on and I know it is going to expand 
because this is a very important item.
    The cost of those programs is insignificant compared to the 
cost of treating the problem. I think I cited the number $1.1 
billion to treat obesity and overweight-related illnesses in 
our military medical system and the TRICARE program that 
supports people like me and others. It is--you cited 14 cents, 
I think, versus $14 billion. There is just no comparison.
    Chairwoman Stabenow. Well, thank you.
    Principal Stanislaus, could you talk a little bit about, as 
a principal, how your school is working to ensure that kids are 
receiving healthy breakfasts and healthy lunches. What kinds of 
things are you doing?
    Ms. Stanislaus. We were fortunate enough this year to 
receive a grant from the State that allowed us to have a Free 
Breakfast Program for not only the 65 percent of our students 
who would receive a Free and Reduced Meals Breakfast, but for 
all students. It is--we already had in place what we called a 
Sustained Silent Reading in the morning, and once we received 
the Breakfast Program, we were able to bring the breakfast 
items into the first period classroom. Now we call it Books and 
Breakfast and it works out really nicely.
    The students--I have seen an increase in my attendance 
rate. I have seen--and I check it every week. We are certain to 
check if students are coming in on time and are there at school 
and ready to learn. We have seen some great increases.
    Another partnership that I formed was a partnership with 
the University of Maryland at my former school, where they 
would come in and actually have lessons with the students on 
the importance of nutrition.
    I really think that it starts with the advocacy of the 
principal and tapping into the resources. I work very, very 
closely with our Food Services Director and our program in my 
county and I am consistently asking for opportunities for my 
students and my community. We were selected for this summer, 
one of 12 schools to receive a Summer Lunch Program. Not only 
will my students benefit, but students who live in that 
community up to age 18 are welcome to come to my school for a 
free lunch.
    Chairwoman Stabenow. Thank you.
    One more question here before my time is up. Mr. Thornton, 
could you talk from the parent standpoint about working 
together to make the school programs a success, a little bit 
more about how you see parents in the involvement.
    Mr. Thornton. Madame Chairwoman, first of all, we believe, 
and we really push for a solid wellness policy around our 
school systems. PTA uses six standards for effective school 
partnerships in working on issues such as nutrition. One, 
welcoming all families into the school and communicating 
effectively around these particular programs are two of the 
standards.
    Just to give you an example, at home we understand the 
importance of the family meal. Sometimes, families do not have 
the time to properly plan and we understand that. One of the 
tools that we have is a partnership with the Healthy Weight 
Commitment Foundation to provide grants to a lot of local PTA 
units around the country to help parents work on nutrition and 
educate them on nutrition within the schools. What does a 
healthy plate look like? What does a healthy grocery shopping 
trip look like? Those are some of the grants we've provided to 
assist our parents; one of the strategies that we use.
    Chairwoman Stabenow. Thank you very much.
    Senator Brown.
    Senator Brown. Thank you, Madam Chair.
    I thank you all for your testimony. It was terrific. Thank 
you for that.
    I want to make three quick comments before I get to my 
questions. First, I really appreciate General Hawley's comment 
and Chairwoman Stabenow's comment about the National School 
Lunch Program, created after World War II in response to far 
too many recruits being malnourished. I think it is always 
important to put anything this government does in historical 
context because it teaches us for the future, so thank you for 
that.
    I wanted to mention, in Ohio, ProMedica, a health care 
provider in Northwest Ohio, out of Toledo, and provides also in 
Southeast Michigan, as the Chairwoman knows, announced a plan 
to reduce hunger and improve childhood nutrition. They view 
ending hunger not just as the moral issue that all of you view 
it as, I think, but also as one of the most important ways to 
lower health care costs.
    The third point I wanted to make before directing some 
questions to Ms. Stanislaus is the Summer Feeding Program in my 
State, we have about 600,000 students every day that--in any 
single day, on the average, and getting the School Free or 
Reduced Breakfast or Lunch Program, 600,000 during the school 
year. In the summer, and we are maybe slightly above the 
national average, only about 60,000 students on any single day 
are participating in the Summer Feeding Program. You think of 
the difference there, 600,000 in a particular day in March or 
April, and in July and August, it is one-tenth of that, and 
what that says about what we are doing, where we need to go.
    My questions are for Ms. Stanislaus. I would first say, if 
I had teenage children, I would want them to go to Francis 
Scott Key Middle School because I know the leadership that 
principals show and what a difference that makes in the whole 
school environment. Teachers are better. The students are 
better. The custodians are better. Everything is better. Thank 
you.
    I held a conference call to Ohio reporters yesterday on the 
issue of summer feeding and asking them to help--I usually do 
not ask reporters or suggest what they write, but I asked them 
to help get the word out for these Summer Feeding Programs. 
Part of it is we only have about 1,700 sites, which is more 
than we have had some other summers. We get AmeriCorps and some 
other groups and individuals helping us build the sites. You 
have got to build them in May or June and then take them down 
in September, and you have got to find people to do it, 
churches and schools and libraries and all.
    But, talk to me, if you would, talk to the committee, Ms. 
Stanislaus, what that means in terms of the huge drop-off, not 
just weekends--do not talk the weekends and during the school 
year, but in the summer, what that actually means to children, 
to their development, to their physical and mental development, 
to their preparation the next fall for school, all that means.
    Ms. Stanislaus. Thank you. When I look into their faces, 
that is where I start. I can see immediately if a student has 
been really taken care of over the summer, has had nutritious 
meals. You can tell by their physical appearance, by their 
level of energy when they come back, just even--it does not 
even take a summer. You can see over, like, a spring break, if 
they come back, very often, it takes them a lot longer to get 
ready for their school day, for their school week. If school 
starts on a Monday, they may be ready by Wednesday.
    What I have noticed was just a drop in their socialization. 
I have noticed them misbehaving more, where when they have a 
level of consistency, when they know that, they have eaten 
every day and it is a nutritious breakfast, lunch, their 
anxiety does not go up. Right now is the second-to-last day of 
school in my school and many other middle schools, and as 
principals talk, we are noticing that the anxiety in our 
children are really increasing. I think a part of it is because 
they know that they are not going to be able to come in and get 
that free breakfast and free lunch.
    I am fortunate to have a school that will have that this 
summer, but not all schools in my system have it, only 12. So--
--
    Senator Brown. Talk to me--if I could take another few 
seconds----
    Chairwoman Stabenow. Sure.
    Senator Brown. Understanding, probably in the State of 
Maryland, the Summer Feeding Program is roughly ten or 12 or 15 
percent of those during the year. How does that compare? If you 
have an active middle school like yours with however many 
students that you said it is a universal free breakfast, how 
many of them are there in the summer and what can we learn from 
what you do there in your geographic location to reach into 
communities and do better everywhere?
    Ms. Stanislaus. Thank you. It starts with communicating. 
That is first. I--this summer will be my actual first summer 
with this school to see exactly how this program works. I do 
have over 900 students. It is us really reaching out to the 
parents----
    Senator Brown. You have 900 during the school year----
    Ms. Stanislaus. Yes.
    Senator Brown. --or 900 in the summer----
    Ms. Stanislaus. During this current school year.
    Senator Brown. Okay. How many do you have in the summer 
feeding? You do not know yet.
    Ms. Stanislaus. Well, it is open to everyone, and I am not 
sure yet, because this will be the first summer----
    Senator Brown. But, last year, do you know how many they 
had?
    Ms. Stanislaus. We did not have the summer program----
    Senator Brown. You did not have it last year.
    Ms. Stanislaus. --and that is where, you know. We are 
really excited to have it this year, and I will--I can get back 
to you and let you know the success of it.
    Senator Brown. Will you--if I can interrupt again. I 
apologize.
    Ms. Stanislaus. Sure. No problem.
    Senator Brown. Sorry, Madam Chair. Do you use the same--I 
know in most--it seems most that I have watched and been part, 
I mean, been part as an observer, the breakfasts and lunches 
and the snacks in the summer are pretty much pre-prepared in 
boxes and all that. Will you, in the Summer Feeding Program, 
because you are using the middle school's cafeteria, I assume--
--
    Ms. Stanislaus. Mm-hmm.
    Senator Brown. --will you prepare these lunches and 
breakfasts the same way you do during the school year?
    Ms. Stanislaus. Yes. They will get warm lunches. Breakfast 
is usually a cold breakfast, a cereal and a bagel, a fruit. 
But, for the lunch package, it is going to be prepared the same 
way it would be prepared during the school year.
    Senator Brown. So----
    Ms. Stanislaus. They are actually going to have--hire staff 
to come in and ensure that the teachers are teaching and the 
staff who are working in our cafeteria----
    Ms. Stanislaus. The reimbursement for this is enough to 
fund the same kind of feeding program that you do during the 
school year?
    Ms. Stanislaus. Hmm?
    Senator Brown. The same kind of preparation of food that 
you do during the school year?
    Ms. Stanislaus. Uh, yes.
    Senator Brown. The funding----
    Ms. Stanislaus. The county is handling the funding.
    Senator Brown. The county is going beyond what USDA does.
    Ms. Stanislaus. Yes.
    Senator Brown. Okay.
    Ms. Stanislaus. Yes.
    Senator Brown. Sorry for the length of that, Madam Chair.
    Chairwoman Stabenow. No, thank you very much. That is an 
important question we are going to get into in reauthorization, 
and breakfasts versus lunch.
    Another great children's advocate--we are so lucky on this 
committee to have Senator Brown and Senator Casey. Welcome. 
Thank you.
    Senator Casey. Madam Chair, thank you, and thank you for 
having this hearing and we have great testimony here and great 
witnesses.
    Senator Brown was asking a lot of the questions that are on 
the minds of each of us when it comes to kind of a general 
point, the drop-off between the children that get either a 
breakfast or a lunch or both during the school year, and then 
in the summer, a huge drop-off.
    In Pennsylvania, we have more than 1.8 million children 
enrolled in the School Lunch Program. A fraction of that are 
getting help in the summer, and that is one of our big 
challenges.
    Just at the outset, I just want to make a brief statement 
about kind of a philosophy of mine, or a guiding principle for 
me. I think one of the problems we have nationally in terms of 
our national programs, national efforts--what you might even 
call a national strategy, which I do not think we have for 
children, but I think what we need--this question that we are 
examining in this hearing is, I think, at least one of the four 
pillars or one of the four parts of the strategy.
    If we are doing the right thing--and we are not, we are a 
long way from this--we should make sure that every child has 
health insurance, every child has a quality early learning 
opportunity--and when I say every child, I mean every single 
one, that has to be the goal--that every child has the kinds of 
basic protections from predators, and then, number four, and 
not in this order, is the issue we are talking about today, 
that children have access to enough food to eat, but making 
sure that it is nutritious food. If we did those four things 
for every child, we would be a much better country and our 
national security would be enhanced.
    This is one of those four, and I know we do not have time 
for every question, but I wanted to ask--I wanted to start with 
Dr. Cook. The WIC Program, talk to me about that in terms of 
the Women, Infants, and Children Program as a preventative step 
to cut back on the potential that child will be obese down the 
road, if you can talk about that one particular program.
    Dr. Cook. Sure, and thank you very much for the question. 
The Women, Infants, and Children Program represents a great 
opportunity. In New York, they piloted some of the first 
changes and we were able to see in our community how the 
offerings to the mothers were changing, more whole grains, 
better variety of foods for the mothers who are breastfeeding 
as well as for the infants and children, more culturally 
diverse food offerings, as well, which we also know is very 
appropriate. If a family comes from a certain cultural 
background, yet what they are offered is not relative to the 
parents who are preparing and serving these meals, it is not 
really going to work.
    I think it also represents a great window, as 
pediatricians, where we look at another way to outreach to the 
families. If we can get WIC workers in our office, in our 
waiting rooms two days a month, where they can be there and 
make available the information to families, we feel that is a 
huge advantage.
    I had mentioned before, 80 percent of children in our 
community--in the City of Rochester qualify for Free and 
Reduced Lunch, and because of that, the whole city school 
district has universal Lunch Program, as well. In the two 
largest practices in the city, ours and the other training 
practice that is affiliated with another hospital in our 
system, we have about 13,000 patients in each of them. Sixty-
five percent, if not more, are Medicaid/Medicaid-eligible, and 
we know that just with those two practices, we reach 
approximately 45 percent of the children in the city. Just with 
those two sites, linking access to WIC and WIC enrollment 
represents a great opportunity to get the information out.
    For the past couple of years, we have been working with our 
food pantry agency that is organizing the Summer Meal Programs, 
as well as some of the advocacy agencies, to get the 
information about where summer meals are into the pediatric 
practices. We do not see every kid, but when kids are coming in 
for a summer camp physical or for illness, we have that 
information available. We always try to think a season or two 
ahead, and that has been one of the strategies we have looked 
at specifically.
    I am very fortunate, because where I trained in Rochester, 
the concept of community pediatrics was born because we felt we 
had to really reach out to children and families. We have done 
a great job with vaccines preventing so many illnesses in kids 
that we are now seeing this wave of new morbidity, and 
nutrition, physical inactivity, mental health issues are the 
core of that wave, and so we really have to think outside the 
four walls of our office.
    Senator Casey. I was going to ask you a question, but I 
will answer the question in my own way. I think if you just 
looked at one indicator of how we are doing in terms of 
national policy that undergirds a national strategy for helping 
pregnant women, I do not think we would get a very high letter 
grade, maybe a D. That is my opinion, but I think we have a 
long way to go, and WIC plays a role in that, as you know.
    I know we are almost out of time, but I wanted to ask our 
principal, Principal Stanislaus, maybe just on a lighter note, 
when you talked about irritability in the morning and Sustained 
Silent Reading periods, that might help in the Senate.
    [Laughter.]
    Senator Casey. We do not need more irritability. We have 
got plenty of that. But, Sustained Silent Reading, I think we 
should consider for Senators. We are pretty irritable when we 
are not eating.
    But, just this whole question, which is so central to the 
life of a child. I like to say that if kids learn more now, 
they are going to earn more later, but you cannot really learn 
if you are hungry. You cannot really learn if you have got a 
lot of other things happening to you. But, just this basic, 
fundamental question about the trouble that children have 
concentrating----
    Ms. Stanislaus. Mm-hmm.
    Senator Casey. --because of lack of access to food or 
nutritious food. Talk about that for a moment. I know you spoke 
to it, but----
    Ms. Stanislaus. Right. I think for me, personally, because 
I was one of those children and I have a personal connection to 
what that really feels like if you do not have your breakfast 
because--or you do not have dinner because there is nothing at 
home to eat and you are truly waiting to come to school for 
that meal, I can get it because I can just kind of envision 
what that feels like because I have lived it. I understand. 
Even when my students are--it is middle schoolers. We all know 
at times they say, ``Oh, I am fine,'' or try to be too proud. I 
know what that really, really means. It may just mean taking 
them into another location and saying, oh, here. Here is your 
breakfast.
    Yes, it plays a very, very heavy role. That is why, I 
think, as a principal, you really need to be in touch with the 
social-emotional side of where your children are and really get 
to know them and get to know their families. Unfortunately, 
there is a really big stigma with being a student who receives 
Free and Reduced Meals. For some reason, they just know that, 
oh, I am a student who receives Free and Reduced Meals. But, 
having my Breakfast Program, it made such a difference because 
now everyone, any child, it does not matter of the income of 
their parent, can get their meal in the morning and it is no 
stigma attached.
    It is really pushing students past that in order to help 
them unlock their best thinking, because if you cannot--if you 
are hungry, you are not going to concentrate. You may get some 
of the information, but you are going to miss most of the 
information. At times, the hunger and the misbehavior tend to 
go hand-in-hand. Once you take care of that fundamental need, 
you often find that students are able to elevate their progress 
throughout the course of the day, throughout the course of the 
year.
    Senator Casey. Thanks very much. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you.
    Senator Klobuchar.
    Senator Klobuchar. Well, thank you very much. I am sorry I 
was late. I was at a Judiciary hearing where we had some votes. 
But, I knew I was at the right hearing when I saw Senator 
Gillibrand's orange peels right here.
    [Laughter.]
    Senator Klobuchar. Thank you so much to our witnesses, and 
thank you to the Chairman for holding this hearing.
    In 2010, we overwhelmingly approved major reforms to the 
Child Nutrition Programs through the Healthy, Hunger-Free Kids 
Act, and I supported that legislation, felt very strongly about 
it, and I oppose some of the current efforts to roll it back. I 
think that we have shown a bit of progress with some stability 
in the numbers and the rates of childhood obesity, but I think 
we all know that there is a lot more work to be done.
    I guess I would start with you, General Hawley. In your 
testimony, you included an anecdote about school kids and the 
consumption of nearly two million candy bars. I think you said 
it weighed more than the U.S.S. Midway Aircraft Carrier. That 
is quite a picture. I have worked closely with Senator Harkin 
to change the standards for vending machines and a la carte 
lines, and the Smart Snacks in school provision takes effect, 
as you know, July 1st. In your view, what role do vending 
machines and a la carte lines play in medical disqualifications 
in recruitment?
    General Hawley. Well, I think they play a huge role. We all 
know that sugar is a primary contributor to this problem, the 
over-consumption of sugar. I am not an expert on what is going 
on in today's schools, because my kids grew up a long time ago, 
but I can relate a tale from one of my partners in this effort 
who related the fact that when he was a child growing up in 
North Carolina, they had cigarette machines in the schools. 
This is a place where kids go to get----
    Senator Klobuchar. Okay.
    General Hawley. --bad habits reinforced. Our experience in 
the military is that by the time we get them as recruits, it is 
almost too late to influence their habits, because we all know 
that we develop eating habits early. I like the things that my 
mother fed me when I was a child. I am 72 years old and nothing 
has changed. These habits that our children form by accessing 
these vending machines with unhealthy foods, sugary drinks, 
Twinkies, you name it, shape their habits going forward----
    That affects our ability as military services to recruit 
adequately. It contributes to the fact that only 25 percent of 
enlistment-eligible youth could join the military if they 
walked into a recruiter's office today. We need to get a handle 
on that.
    Senator Klobuchar. Okay. Ms. Stanislaus, thanks for your 
work as a principal. My mom taught second grade until she was 
70 years old. She had 30 second graders at age 70, so I really 
appreciate your work.
    As implementation of the Healthy, Hunger-Free Kids Act 
continues, USDA, as you know, has provided additional technical 
assistance, including $25 million in grant funding to help 
schools purchase kitchen equipment that will allow them to 
provide healthier meals.
    As an administrator who works closely with the cafeteria in 
your school, do you think that there is going to be more 
investment in kitchen equipment in order to provide healthier 
meals?
    Ms. Stanislaus. I think that for my county, the Food 
Services Administrators, they often visit our school to monitor 
and ensure that the lunches that we are serving are healthy. I 
have to say that my county has done a really great job with 
giving our school and all of the schools across the county kind 
of a guideline as to what is acceptable nutritional values. 
Days of pizza parties are gone, because we want to ensure that 
the foods that we are serving are of really high nutritional 
value.
    I think about the vending machine. We do have a vending 
machine. It is on a timer, and I thank you for ensuring that we 
do have healthy snacks in the vending machine that are not only 
befitting what the expectation here is for this committee, but 
also the expectation for my county. Students, yes, they are 
allowed to go to the vending machines, but after they have 
eaten their meals.
    Getting back to the equipment in the kitchen, everything 
for our kitchen, we are really, I would say, pretty much doing 
okay. But, if there is ever anything that we need, the county 
is right there to support my staff.
    Senator Klobuchar. Thank you, and our State has actually 
been a leader in bringing the Farm to School Programs in place. 
I am out of time here, but I will ask you about that in 
writing. Thank you very much for all your work, and----
    Ms. Stanislaus. Thank you.
    Senator Klobuchar. --we know that change is not easy, but I 
think these standards are very important and I do not think now 
is the time to roll them back. Thank you.
    Chairwoman Stabenow. Thank you very much.
    Senator Thune.
    Senator Thune. Thank you, Madam Chairwoman, and thank you 
all for being here and for providing great insights on this 
important subject.
    General, thank you for your service. Welcome back. It is 
nice to see you again. I am interested in the fact that 25 
percent of our young people 17 to 24 are eligible, and you 
listed academic preparedness, obesity, and criminal records as 
the three, and I guess--where does obesity fit into that, and 
how has that changed in the time that you were in the service 
relative to those other factors?
    General Hawley. Well, on the first point, our best--people 
are disqualified sometimes for multiple reasons, so it is a 
little hard to pin down exactly what percentage is due to 
overweight or obesity, but better than one in five of the 
disqualified applicants are attributable to overweight or 
obesity.
    Senator Thune. Okay.
    General Hawley. The change is dramatic, of course, over the 
course of my service. I became a Second Lieutenant in 1964. It 
was a very different country then and obesity was not nearly 
the problem that we have today. I cannot give you the number, 
but I would guess it was below ten percent were rejected from 
service because of their weight.
    Senator Thune. Well, and you said 1,200 a year are 
discharged because of that. Is that--when they are discharged, 
we assume that when they came in, they met the weight 
requirements, and then what contributes to that while they are 
in the service? How do they----
    General Hawley. I think most of them were borderline when 
they came in, and, of course, we feed them very well.
    [Laughter.]
    Senator Thune. Right.
    General Hawley. We exercise a lot, but we offer a lot of 
food. Sometimes it is due to other factors. They have consumed 
so many sugary drinks rather than milk and too few vegetables 
so their bones are brittle and we wind up with--it is both a 
weight-related problem and a diet-related problem, so they 
suffer fractures, serious sprains, whatever. But, there is a 
lot of issues with those, and every time we have to discharge 
one for these problems, we spend about $75,000 to go recruit a 
replacement and train them, to the tune of about $90 million a 
year.
    Senator Thune. Let me just--I can direct this to anybody on 
the panel, but, just, what can be done to encourage parents to 
do a better job, take more responsibility for providing 
healthy, nutritious meals for children? I mean, people kind of 
hearken back to their younger days. When I was growing up, I 
grew up in a small town. We did not have a School Lunch 
Program, so everybody either went home or they brought a sack 
lunch to school. We, fortunately, lived close enough to the 
school that we would go home, but my parents both worked, and 
somehow, my mother managed to get up in the morning and get 
something for us for breakfast and then put something in the 
oven for lunch.
    It is a very different world today, but what can we do to 
encourage, better incentivize parents to complement the meals 
that are provided at the schools and ensure that our kids are 
getting the nutrition that they need?
    Dr. Cook. I can speak on that topic from the standpoint of 
I have yet to meet a parent that does not want to try to 
provide the basic necessities, as we have heard. Feeding and 
sleeping are probably the most important things to the parent 
of a newborn. It is really important to craft that message and 
think about that message very early. We are even looking at and 
seeing research that it is at the time of conception and during 
pregnancies, when mothers are planning what they are going to 
do for their child--where they sleep, how they feed, if they 
breastfeed, a number of things that go on that actually sustain 
those behaviors very early.
    It is really important to understand, and when I say 
parents, unfortunately, this does become much a burden of 
mothers because of their role. I think it is really important 
to understand that identifying these issues very early at the 
health of pregnancy can be one of the early windows to try to 
identify where parents feel is normal and not normal, what is 
really healthy versus perceived healthy.
    We have hit on history a lot here and I find that very 
important, and one of the best advocates I have often found is 
when grandma is in the room, because that can be a great 
resource for the family. Unfortunately, many of the families I 
see, not really the traditional nuclear family are very 
disconnected. They may not have the same type of social support 
and social structure that can give that type of beneficial 
anecdotal evidence.
    I think it is important to understand, the evidence is very 
difficult to figure out in kids because you cannot do a 
research study in a child the same way you can in an adult. 
They are a protected population. It is using history, using 
families, and in this case, providing those resources at really 
critical times, and in infancy and childhood, getting families 
to adopt these behaviors is really an important time because it 
can imprint these behaviors throughout their lifetime.
    Senator Thune. Do you think that we put too much--I mean, 
is it a disincentive to parents when you increase the number of 
meals and parents start shifting that responsibility to the 
schools and say, well, the school is going to take care of 
that?
    Dr. Cook. I think it is a really important balance to try 
to strike, because the parents are assuming, and parents do 
have a respect for the school to protect their child, and so I 
think it represents that balance of they are assuming that it 
is the right thing that is being done there. As we have had 
parents engage schools around the PTA, around school wellness 
policies, they become very concerned and shocked when they are 
actually in there seeing what is available. I think it is a 
balance of the responsibility of the parent as well as the 
school, and that is why having parents involved in the process 
actually is moving this forward very well.
    Senator Thune. My time has expired, so thank you, Madam 
Chairman. Thank you all.
    Chairwoman Stabenow. Thank you very much.
    Senator Gillibrand.
    Senator Gillibrand. Thank you. Thank you, Madam Chairwoman, 
for holding this hearing. I am very grateful.
    Mr. Thornton, with the start of summer upon us, I am 
reminded that many of our low-income students and children will 
lose access to school breakfasts and lunches that they rely on 
during the school year and that both hunger and obesity go up 
during summer vacation. The Summer Nutrition Program ensures 
that low-income children have access to healthy food throughout 
the summer. Most Summer Nutrition Programs occur in tandem with 
education enrichment programs that keep kids learning, engaged, 
and safe during the summer months.
    However, despite these benefits, summer meals only reach a 
fraction of eligible children and many children often do not 
have adequate access and go hungry during the summertime. Can 
you talk a little bit about the need to ensure access to 
healthy meals year-round so that children are returning for the 
school year healthy and ready to learn.
    Mr. Thornton. Senator, thank you for the question. Quickly, 
to address the former, Senator, one of the things I talk about 
to our over four million parents around the country is personal 
accountability. Education begins at home. Dr. Cook mentioned 
earlier, different people come from different stages in life. I 
am one of those kids who did not always have access to food 
during the summers. I mean, my family did the best they could, 
but, again, we have to keep that in mind as we look at the 
public school system its, use as a public good and that these 
type of programs help kids that may not have the same privilege 
or opportunity as other kids have had.
    Senator, as for the programs we are looking at and working 
on for our children, we are working with Secretary Vilsack and 
the Department of Agriculture and other organizations to help 
find those resources to get additional food for those kids in 
the summer, recognizing, as we heard the principal talk about 
today, the impact that it has on their academic performance and 
coming back to school after having to deal with that. Very 
directly, we are working with government agencies and our 
advocates to try to get those programs in the communities.
    Senator Gillibrand. Thank you.
    Dr. Cook, in New York, we talk a lot about the intersection 
of childhood obesity and actual hunger, that the quality of the 
nutrition that some of our most obese children are receiving is 
so low that they are actually obese but still starving. We 
address this a bit in the farm bill with food deserts, trying 
to make sure that inner cities or remote areas have access to 
affordable fruits and vegetables. You would be surprised. There 
are food deserts in the Bronx, in Brooklyn, in the North 
Country. In a State as wealthy and rich as New York, it seems 
outrageous.
    But, can you talk a little bit about the intersection of 
hunger and obesity and what are the dynamics at play, and what 
are your best ideas for the School Nutrition Program to combat 
both, or any other programs that you think are worth 
mentioning.
    Dr. Cook. Thank you very much for the question, Senator. 
The interaction of hunger and obesity is a really important and 
complex one. As research has actually really shown, the body 
physiologically adapts to these different states. Anecdotally, 
the story is always that at the beginning of the month, 
families have more food. Near the end of the month, there is 
less. We have seen evidence that shows that the eating 
patterns, the foods available in the home are different at the 
beginning of the month versus the end of the month.
    The problem is that metabolically, physiologically, that 
actually has an impact on the body, and biologically, we are 
still cavemen. When we put on calories, the body's metabolism 
when we store that alters to hold on to that, to defend that 
weight, because we know we need to survive. Even though it is 
not the Stone Age, our bodies physiologically still respond 
that way, which makes weight loss extremely difficult.
    You have a person, especially a child, who has gained a 
tremendous amount of weight for whatever reason, whether the 
origins are hunger, stress, depression, overfeeding and cyclic 
feeding patterns that you would see if you are having more 
calories at the beginning of the month versus the end. That 
makes it more difficult to lose weight.
    The stress that comes with hunger also drives up hormones 
that drive up appetite. The distress that goes on in some of 
our children is obesity is just one of the manifestations of 
that. The hunger is always there. As we look at these children 
metabolically, even though their weight may be normal or high, 
they are nutrient deficient. We still see many children, obese 
children, who are iron deficient, who are borderline Vitamin D 
deficient, because while they get excess calories, they are not 
getting the important nutrients. We know in childhood, 
especially in infancy and toddlerhood when the brain is 
growing, just like it is more susceptible to a small level of a 
toxin like lead--a small amount of lead fed to a child or a 
child is exposed to lead as a toddler has a big impact on the 
brain.
    Very concerning that the nutrition science is coming along 
that is suggesting some of the same findings. Are we imprinting 
eating behaviors, or because of nutritional deficiencies, 
affecting the developmental growth, the brain growth in 
children.
    Senator Gillibrand. Thank you, Doctor.
    Ms. Stanislaus, can you talk about ways to increase 
participation in School Nutrition Programs, such as offering 
breakfast or lunch for free for all students, allowing students 
eligible for reduced price school meals to participate for 
free, or implementing a Breakfast Program.
    Ms. Stanislaus. I still struggle every year with having my 
parents complete a form that will make them eligible for their 
students to receive Free and Reduced Meals. As stated earlier, 
I currently have slightly over 65 percent of my students who 
are eligible for that, but I can assure you that I have more 
children in my building whose parents may not have felt 
comfortable filling out that form because it, in a sense, 
stigmatizes them.
    Once we received the Free Breakfast Program for all 
students, it took that stigma away. Wow, would it not be 
amazing to have a Free Breakfast Program and a Free Lunch 
Program so that it would take away the stigmatism that goes 
with having to fill out that form and turn it in and, oh my 
gosh, what are they going to think about me.
    I struggle with that every year. Sometimes, it is me 
calling a parent into my office and kind of having a heart-to-
heart and letting them know, it is okay. I will take the form. 
I will personally turn it in. It makes that difference, but 
that is the difference, and the time that I am willing to take, 
and many of my colleagues, to ensure that the children get what 
they need.
    In saying that, I think if it does not change, just 
exciting students about learning about nutrition, like Dr. Cook 
was saying, using food as fuel as opposed to, I just want to 
eat it because it really tastes good. They may--trying 
different things will excite them. In turn, I have found as a 
principal, often it excites the parents.
    But, going back to if it were free for all, I can imagine 
that everyone would partake in the program.
    Senator Gillibrand. Thank you, Madam Chair.
    Ms. Stanislaus. Thank you.
    Chairwoman Stabenow. Thank you very much.
    Senator Boozman, we are so glad to see you.
    Senator Boozman. Thank you, Madam Chair. Thank you very 
much.
    Ms. Stanislaus, I really do not have a question for you, 
but I do want to thank you. As a principal, I know how hard you 
all work. I was on the school board for seven years, and I tell 
my colleagues, it does not matter what issue we are discussing 
here, there are many school board issues that are much more 
tougher. We do appreciate all that you represent and the people 
that work with you to get this done.
    Dr. Cook, in your testimony, you told the story about a 
small change in beverage consumption that made a huge 
difference for a young person and got them back into the normal 
BMI range. Is there any other low-hanging fruit out there that 
we can do in the same manner?
    Dr. Cook. The area that we look at in terms of low-hanging 
fruit----
    Senator Boozman. Maybe it is fruit.
    [Laughter.]
    Dr. Cook. Low-hanging vegetables, I would add.
    [Laughter.]
    Dr. Cook. I think both of those are part of the key points, 
and it is really important to find where the evidence is and 
then what is feasible. I can give patients all kinds of advice, 
but if it is not going to fit in their lifestyle, in their day, 
in their routine, it is not going to work. Relative in terms of 
the low-hanging fruit, early and often. Giving the message 
seven times is kind of a joke, but really a useful strategy.
    If we have some of these same messages that we are using in 
our offices are being used in schools and day care centers 
around screen time, physical activity, active play, where they 
are running around--not necessarily has to be structured 
sports. Fruits and vegetables are really important and really 
tough, probably the toughest of all the behaviors because of 
access, taste, presentation, so many steps that can go into it. 
But, liquid calories really are very occult, and I say that 
because you could drink this package full of water or it could 
be a sugary beverage and the amount of fullness you will feel 
will be the same, and will probably be minimal. Yet, you could 
have 600 calories in there or you could have zero.
    Senator Boozman. Right.
    Dr. Cook. The amount of time a parent or a child--actually, 
the amount of time a child needs to be active to burn 600 
calories would probably drive a parent nuts----
    [Laughter.]
    Dr. Cook. --because of the amount of activity. I mean, a 
big misperception is that children are very active and it burns 
a lot of the calories. As liquid calories, being, really, an 
important first step. Screen time and----
    Senator Boozman. You run into--and I do not mean to 
interrupt you----
    Dr. Cook. No, go ahead.
    Senator Boozman. But, you run into the same problem besides 
the Coke-type beverages. You would run into the same problem 
with some of the juice, high-calorie sugar----
    Dr. Cook. Absolutely. I mean----
    Senator Boozman. --or carbohydrates.
    Dr. Cook. Yes. I mean, virtually almost all the liquid 
calories we drink will fall into that range and it has a very 
similar pattern. The low-hanging fruit, a lot of times, can be 
liquid calories.
    Again, screen time, very important. When we can bring in 
more evidence to reinforce it to parents--the screen time is 
bad because it is mindless time. They are not active. It is 
actually more time for consumption. If you sit in front of a 
screen for five or six hours, you may not burn 100 calories, 
but you may eat 250 calories, and it is that occult eating that 
you do not catch. The same thing with kids, and it becomes a 
repetitive type of behavior. It also does not allow kids to 
relax and fall asleep easier, and that, again, is a very 
important concern for our parents.
    Having the stealth type of intervention, or having the 
collateral type of advantage of these small steps can be really 
beneficial, and if we can give these in age-appropriate simple 
steps in our office and in other settings that reach families 
and children, like school, early child care programs, after 
school programs, then we are hitting them with multiple 
messages--the same message multiple times.
    Senator Boozman. In your testimony, you equated that to a 
normal BMI range. The BMI, it has some problems with it in the 
sense that there are body types and things. I hear from parents 
occasionally that you have a kid that is just a good, healthy, 
normal looking kid, and yet the BMI says that they are obese. 
Our body types are different. Is there another test that is 
coming out that perhaps will do a better job of identifying 
people that truly are in need?
    Dr. Cook. I think that is a very important point, because 
BMI is a useful tool on a population level, and if measuring a 
thousand people, the top third fall in this range for health, 
on the individual level, it can be more limiting because it 
measures weight either as fat or as muscle. I always caution 
pediatricians to think about it. When we try to use the data, 
the higher the cut-off, the worse concern I have. But, in a 
young child, I will also ask a pediatrician, if they are asking 
for advice, what is the parent's weight, because having two 
obese parents as a three-year-old is actually a much bigger 
risk factor for that child to be an obese adult than their 
actual weight at the time.
    Additional measures really comes out of the research that 
we are trying to develop and the importance of continuing this 
research and looking in children, because children are a group 
that are not studied as closely. We are putting more attention 
to it, and we need to understand what is the really normal 
physiological growth. I think the sad point is that we do not 
have as many children going through normal physiologic growth 
in our modern era than we would have even 30 years ago.
    I would also add the point that, when parents will say, 
well, they are big boned, or they are pretty large, most 
toddlers, three-, four-, five-year-olds, do not have that much 
muscle mass. Even when their BMI is high, it is more likely 
going to have more components of body fat. Now, when it is 
teenagers and body and muscle mass and fat mass are changing, 
it is a different story and it can be very difficult.
    But, I agree. It really does need to look at a mix of when 
we can identify BMI as the first step.
    Senator Boozman. Right.
    Dr. Cook. What I like to say is, like not every tumor is 
cancer, not every high BMI is obesity----
    Senator Boozman. Right.
    Dr. Cook. --and, so, we really do have to work on that.
    Senator Boozman. I think you make a good point. Even among 
the pediatric community, that is so well educated in this, my 
concern is that at the school level, where you have an 
administrator or whoever is doing these programs, and in many 
of our smaller schools, there are people like that. They simply 
look at a number, chart that in, and it is automatically that 
way without using any common sense along with it.
    Dr. Cook. I agree, and I think schools have a lot of things 
on their plate, and doing fitness testing, we know, is 
beneficial, and increased cardiovascular fitness is beneficial 
for all kids. But, as we have seen in Rochester when asking 
parents and doing surveys, they want to hear about this and 
talk about this with their primary care provider. Even if we 
can off-load some of those burdens from schools of doing it, 
because that is where we are hearing----
    Senator Boozman. I agree.
    Dr. Cook. --the few but loud stories of, this is not really 
an accurate measure of my child, well, that may or may not be 
true. But, maybe if we put it in a different context when 
health can be presented, it can take some of the burden off of 
schools and can put it in a setting where parents may be more 
comfortable to discuss it.
    Senator Boozman. Right. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much. Really important 
questions and discussions.
    We are going to be wrapping up, but I would like to ask 
each of you a closing question, the same question, that would 
be very helpful to us because we have been talking about child 
nutrition and the impact both within the school, but also more 
broadly for our country. If you could give the committee a 
piece of advice as we consider reauthorizing Child Nutrition 
Programs, what would you say is the most important thing we 
could do to address some of the concerns and the ideas that you 
have raised today.
    I will start with General Hawley.
    General Hawley. Well, I learned during my career that 
probably the most valuable trait you can have is persistence. 
As they say, persistence will out. I guess my advice would be, 
stay with it. This is an important program. I am sure it is not 
perfect and it can be improved. But, I think it is beginning to 
work. My view is that this is a cultural issue in our country 
and cultures take a long time to change. We should not expect 
instant results from any program, least of all one that tries 
to change the nation's eating habits. I give my advice, stay 
with it. Keep up the good work. I think, in time, we will see 
the results.
    Chairwoman Stabenow. Okay. Great advice.
    Mr. Thornton.
    Mr. Thornton. Thank you, Chairwoman. As we talk about these 
nutrition needs of our children, they remain the same whether 
you live in Iowa or Georgia. It is impractical to try to force 
parents to fight for access to healthier foods one school at a 
time. Instead of reinventing the wheel while facing the same 
obstacles, this is the way the reauthorization of these 
programs can continue to make a difference.
    PTA has worked very hard throughout the history to ensure 
that kids had access to equal education, proper nutrition, 
proper fitness, and it is very, very important. I just thank 
you and the committee and all the panelists for engaging this 
topic, which is critical to the future of our children and our 
country. Make no mistake. The decisions during this 
reauthorization will have a definite impact on our schools, our 
hospitals, our economy, our military, our homes, and most 
importantly, our kids.
    I thank you for this time.
    Chairwoman Stabenow. Thank you very much.
    Dr. Cook.
    Dr. Cook. Thank you very much for the question. I find it a 
persistent question that we get a lot related to this as I give 
presentations, and sometimes it is the, what is the one thing I 
would do if I could do something, would be to get everyone to 
realize there is not one thing you can do. Everything is part 
of the problem. Each one of these strategies and proposals 
represents one percent of the solution. It cannot be left off. 
It is not the magic bullet. We need to include all of these.
    We need to think global and act local, because that is 
where I find, like, a lot of social change occurs. It is going 
to occur at the grassroots level where it really can take hold 
and have that local relevant context that is really important.
    I thank you for the question. Just to conclude, with 
obesity and with hunger, we discuss this a lot, and I think it 
is really important that obesity has come up as a disease, but 
it is probably the one disease that still exists that does not 
carry the dignity of other chronic diseases, and that is even 
more so a problem for children and adolescents. I think it is 
really important to make this about health, about health at any 
size, and promoting the health across all children and all 
families.
    Chairwoman Stabenow. Thank you very much.
    Principal Stanislaus.
    Ms. Stanislaus. Thank you, Chairwoman. We have mentioned a 
few times today that how the schools are really on the front 
lines. I thank you for this opportunity to share my thinking 
and my experiences with our school and my school system. The 
partnership is definitely something that I would say, let us 
continue this conversation and think about what actions that we 
will take and that we can take back to our schools and our 
school districts, continued opportunities to increase the 
education for parents.
    What--just as a one principal schoolhouse, I often find 
that we struggle with funding to have different events for 
families, after school events. It does take money to put these 
things together. At times, we are robbing Peter to pay Paul in 
order to make this happen for our local communities. If we can 
think about opportunities for these partnerships with 
universities, as I mentioned earlier, or increased funding so 
we can have buses after school so that we can not only have the 
nutritious After School Program and Snack Program, but also 
physical activities and clubs that students can be a part of so 
they are not sitting in front of the screen at home.
    I think this continued conversation, this conversation does 
not need to stop here. Getting feedback from other principals 
and schools would be a great welcome to different educators and 
all educators. Thank you.
    Chairwoman Stabenow. Thanks to each of you, and this 
discussion does not stop here. This is just the beginning. It 
was important to me that we start with the big picture of why 
we have these programs, why should we care about this. We are 
going to be hearing from all perspectives and working with 
everyone to make sure that the way things are done makes sense 
and are workable, and we certainly want to move forward, not 
backward. We do not intend to move backward, so we are going to 
move forward. But, we think it is very, very important that we 
talk about why, as a country, why, as a community, why, as 
parents and family members, that we need to care.
    Thank you again to everyone. Let me just remind colleagues 
that any additional questions for the record should be 
submitted to the Committee Clerk five business days from today. 
That is 5:00 p.m. on Friday, June 20.
    The hearing is adjourned.
    [Whereupon, at 11:34 a.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             JUNE 12, 2014



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             JUNE 12, 2014



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


                         QUESTIONS AND ANSWERS

                             JUNE 12, 2014



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
